Report No. D-2007-093        May 8, 2007




     Report on DoD Compliance with
   Federal Managers' Financial Integrity
               Act of 1982
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports, contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937), or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

ASA           Annual Statement of Assurance
DoD IG        Department of Defense Inspector General
FMFIA         Federal Managers’ Financial Integrity Act of 1982
GAO           Government Accountability Office
IAR           Independent Auditor’s Report
OMB           Office of Management and Budget
PAR           Performance and Accountability Report
USD(C)        Under Secretary of Defense (Comptroller)/Chief Financial Officer
                                  INSPECTOR GENERAL

                                 DEPARTMENT OF DEFENSE

                                    400 ARMY NAVY DRIVE

                               ARLINGTON, VIRGINIA 22202-4704



                                                                                 May 8, 2007

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/ CHIEF
                 FINANCIAL OFFICER

SUBJECT: Report on DoD Compliance with the Federal Managers' Financial Integrity Act
         of 1982 (Report No. D-2007-093)


       Weare providing this report for your information and use. We considered
management comments on a draft of this report in preparing the final report. The Under
Secretary of Defense (Comptroller) comments conformed to the requirements of DoD
Directive 7650.3; therefore, additional comments are not required.

        We appreciate the courtesies extended to the staff. Questions should be directed to me
at (703) 325-5777 (DSN 221-5777) or Mr. Charles O. Egu at (703) 325-5961
(DSN 221-5961). The team members are listed inside the back cover. See Appendix C for
the report distribution.

                                By direction of the Deputy Inspector General for Auditing:




                                                  ~~~~
                                          Assistant Inspector General and Director
                                            Defense Financial Auditing Service
               Department of Defense Office of Inspector General
Report No. D-2007-093                                                       May 8, 2007
  (Project No. D2006-D000FA-0106.000)

          DoD Compliance with the Federal Managers’ Financial 

                        Integrity Act of 1982 


                                Executive Summary 


Who Should Read This Report and Why? DoD management and personnel in the
Services and Defense agencies who prepare, review, and approve Annual Statements of
Assurance (ASAs) will find this report of interest. The report discusses DoD compliance
with the Federal Managers’ Financial Integrity Act of 1982 and the completeness of
supporting statements from DoD Components.

Background. In 1982, Congress passed the Federal Managers’ Financial Integrity Act
that requires Federal agencies to develop cost-effective internal accounting and
administrative controls. The Act requires each agency head to provide an ASA stating
whether internal accounting and administrative controls are designed adequately and
operating effectively. This statement should include any material internal control
weaknesses identified, and include plans and schedules for correcting the weaknesses.

According to Office of Management and Budget and DoD Guidance, agency managers
should continuously monitor and improve the effectiveness of internal controls associated
with their programs. Managers should also use other sources of information such as
Inspector General or Government Accountability Office reports as a supplement to their
own judgment to provide the internal control assessment in the ASA.

Results. The DoD and Military Departments’ ASAs were not always complete and may
contain inaccurate information because DoD did not fully consider all sources of
information in identifying and reporting material weaknesses. In addition, DoD provided
a level of assurance on internal control over financial reporting that was not consistent
with the scope and pervasive nature of the DoD known material weaknesses. Finally,
DoD reported target correction dates for its systemic weaknesses that are not supported
by the Components’ ASAs. As a result, DoD managers may not be able to effectively
monitor and report on the status of material weaknesses, take timely action to correct
internal control deficiencies, and meet the intent of the Federal Managers’ Financial
Integrity Act and Office of Management and Budget Circular A-123.

DoD Components need to provide thorough documentation if they decide not to include
auditor-identified and DoD-acknowledged financial reporting weaknesses when
preparing the ASAs. Also, DoD should provide a level of assurance on its ASA for
financial reporting consistent with the status and scope of known internal control
weaknesses. In addition, DoD should revise the “Correction Target Dates” reported in its
Performance and Accountability Report to be consistent with the latest reported target
date from the Components’ ASAs.
Management Comments and Audit Response. The Acting Deputy Chief Financial
Officer concurred in principle with the recommendations, but emphasized that it is
management’s decision on whether to report an internal control weakness as material
when preparing the ASAs. We will continue to report weaknesses we consider to be
material as part of our annual audit Report(s) on Internal Control included in our
Independent Auditors Report(s) on the DoD Agency-Wide Financial Statements and
reports for the DoD Components. Our reports will also include comments regardin
unsupported levels of assurance when appropriate. We made a minor change to our
recommendation to ensure the Correction Target Dates in the Performance and
Accountability Report are consistent with the latest reported target date from the
Components’ ASAs. The change recognizes an inconsistency is possible, but it should
be adequately justified. See the Finding section of the report for a discussion of
management comments and the Management Comments section of the report for the
complete text of the comments.




                                          ii
Table of Contents 


Executive Summary 	                                                            i


Background 	                                                                   1


Objectives 	                                                                   3


Finding
      DoD Compliance with the Federal Managers’ Financial Integrity Act of

          1982                                                                 4

Appendixes
      A. Scope and Methodology 	                                              15 

           Prior Coverage                                                     16 

      B. DoD Components Providing Annual Statements of Assurance to the 

           Under Secretary of Defense (Comptroller)                           17 

      C. Report Distribution 	                                                19 


Management Comments
      Under Secretary of Defense (Comptroller)/Chief Financial Officer        21 

Background
           Federal Managers’ Financial Integrity Act (FMFIA) of 1982. In 1982,
           Congress passed the FMFIA, 1 which requires agencies to develop cost-effective
           internal accounting and administrative controls. These controls are intended to
           help ensure that an agency’s:

               •	 obligations and costs are in compliance with applicable law;

               •	 funds, property, and other assets are safeguarded against waste, loss,
                  unauthorized use, or misappropriation; and

               •	 revenues and expenditures applicable to agency operations are properly
                  recorded and accounted for.

           Section 2 of FMFIA requires the head of each agency to annually evaluate the
           agency’s internal control and prepare an Annual Statement of Assurance (ASA)
           indicating the effectiveness of its internal control. The agency head must include
           in its ASA any identified material weaknesses in internal control as well as plans
           and schedules for correcting those weaknesses.

           Section 4 of the FMFIA of 1982 requires that the head of each agency include a
           separate report on whether the agency’s accounting system conforms to the
           principles, standards, and related requirements prescribed by the Comptroller
           General.

           In addition, the FMFIA tasked the Government Accountability Office (GAO) and
           the Office of Management and Budget (OMB) to issue guidance to assist agencies
           in establishing, assessing, and reporting on internal controls.

           GAO Guidance. In November 1999, GAO issued the revised “Standards for
           Internal Control in the Federal Government” (“Green Book”). The standards
           provide the overall framework for establishing and maintaining internal control,
           and for identifying and addressing major performance and management
           challenges and areas at greatest risk of fraud, waste, abuse, and mismanagement.
           According to the Green Book, there are five standards for internal control that
           define the minimum level of quality acceptable for internal control in Government
           and provide a basis against which internal control is to be evaluated. These five
           standards for internal control are control environment, risk assessment, control
           activities, information and communications, and monitoring.

           The standards view internal control as a major part of managing an organization
           and include plans, methods, and procedures used to meet missions, goals, and
           objectives, and, in doing so, support performance-based management. Further,
           internal control also serves as the first line of defense in safeguarding assets and
           preventing and detecting errors and fraud, and helps Government program
           managers achieve desired results through effective stewardship of public
           resources. Additionally, GAO issued the “Internal Control and Management
           Evaluation Tool” in 2001 to provide a systematic, organized, and structured
           approach to assessing the internal control structure.
1
    The key provisions of FMFIA were codified in section 3512 (c) and (d), title 31, United States Code.



                                                       1
 

           OMB Guidance. OMB Circular A-123 Revised, “Management’s Responsibility
           for Internal Control,” December 21, 2004, 2 provides guidance to Federal
           managers on improving the accountability and effectiveness of Federal programs
           and operations by establishing, correcting, and reporting on internal control.
           Agencies and individual Federal managers must take systematic and proactive
           measures to:

                    •	 develop and implement appropriate cost-effective internal control for
                       results-oriented management,

                    •	 assess the adequacy of internal control in Federal programs and
                       operations,

                    •	 separately assess and document internal control over financial
                       reporting consistent with the process defined in Appendix A of OMB
                       Circular A-123 Revised,

                    •	 identify needed improvements and take corresponding corrective
                       action, and

                    •	 report annually on internal control through management assurance
                       statements.

           OMB Bulletin No. 06-03, “Audit Requirements for Federal Financial
           Statements,” establishes the minimum requirements for audits of Federal financial
           statements. 3

           DoD Guidance. DoD Instruction 5010.40, “Managers’ Internal Control Program
           (MIC) Procedures,” as revised, was signed into effect on January 4, 2006, and is
           the official document for DoD compliance with the FMFIA and OMB
           Circular A-123. DoD Instruction 5010.40 sets forth the responsibilities of the
           Under Secretary of Defense (Comptroller)/Chief Financial Officer (USD[C]) with
           regard to implementing its program. 4

           ASAs in DoD. To satisfy the reporting requirement of FMFIA, DoD prepares an
           ASA to report on whether the agency’s internal control is effective and achieving
           the intended objectives in accordance with established guidelines and standards,
           using information from the DoD Components. The ASA is included in the DoD
           annual Performance and Accountability Report (PAR).

2
    We used the revised OMB Circular A-123 for the FY 2006 analysis, and the June 21, 1995, version for
    our analysis of FY 2005 data. With the exception of the Appendix A requirements in the revised
    Circular, which were not included in our audit, the general requirements of the revised OMB Circular A-
    123 and the 1995 version are substantially the same.
3
    OMB Bulletin No. 06-03 was signed into effect on August 23, 2006, and we used it in our analysis of the
    FY 2006 data. This bulletin superseded OMB Bulletin No. 01-02, October 16, 2000, and related
    technical amendments, which we used for our analysis of FY 2005 data. However, the requirements of
    both bulletins pertaining to audit procedures on FMFIA are substantially the same.
4
    We used DoD Directive 5010.38, “Management Control Program,” August 26, 1996, for our analysis of
    the FY 2005 data. DoD canceled this Directive on January 4, 2006. Therefore, we did not use this
    bulletin for our analysis of FY 2006 data.




                                                      2

             Process for Preparing DoD ASA. The USD(C) is responsible for
    preparing the DoD ASA for submission to the President and Congress. To
    prepare the DoD ASA included in the PAR, USD(C) requires ASAs from the
    heads of each DoD Component. For FY 2005, 32 DoD Components submitted
    ASAs to USD(C) and for FY 2006, 34 DoD Components submitted ASAs. For
    both FYs 2005 and 2006, USD(C) personnel consolidated the “feeder” ASAs
    from DoD Components to prepare and support the DoD ASA (see Appendix B for
    a list of these Components).

    DoD considers material weaknesses from the Components’ ASAs when preparing
    the DoD Agency-Wide ASA. Specifically, new material weaknesses identified
    by a Component become material weaknesses on the DoD ASA and new
    weaknesses related to one of the existing systemic weaknesses are consolidated.
    When preparing the DoD Agency-Wide ASA, USD(C) personnel do not report
    new weaknesses that are corrected within the same year they are identified.

            Process for Preparing DoD Components’ ASA. The DoD Components’
    ASAs are based on the senior management assessments of the effectiveness of
    their internal controls. The Components have designated offices responsible for
    managing the ASA reporting process, which require supporting statements of
    assurance from their reporting organizations, reporting elements, or assessable
    units. A Component’s designated office consolidates the supporting statements of
    assurance into one ASA that represents the Component as a whole. The ASA is
    submitted to the head of the Component for review and signature.


Objectives
    Our overall audit objective was to determine whether DoD complies with the
    FMFIA. Specifically, we assessed whether the FY 2005 and FY 2006 ASAs for
    DoD and selected DoD Components complied with the requirements of FMFIA
    and subsequent implementation guidance in OMB Circular A-123. See
    Appendix A for a discussion of the scope and methodology, and prior coverage
    related to the objectives. (Our announced objective dealt with FY 2005 data;
    however, we included our analysis of FY 2006 data in this report.)




                                       3
 

            Compliance with Federal Managers’
            Financial Integrity Act of 1982
            The DoD and Military Departments’ ASAs were not always complete and
            may contain inaccurate information because DoD:

                    •	 did not fully consider all sources of information in identifying
                       and reporting material weaknesses,

                    •	 provided a level of assurance on internal control over financial
                       reporting that was not consistent with the scope and pervasive
                       nature of the DoD known material weaknesses, and

                    •	 reported target correction dates for its systemic weaknesses
                       that are not supported by the Components’ ASAs.

            As a result, DoD managers may not be able to effectively monitor and
            report on the status of material weaknesses, take timely action to correct
            internal control deficiencies, and meet the intent of the FMFIA and OMB
            Circular A-123.


Inaccurate and Incomplete Identification and Reporting of
Material Weaknesses
     The Military Departments did not identify and report several known, existing
     material weaknesses in financial management in their FY 2005 and FY 2006
     ASAs, even though DoD previously acknowledged and DoD Inspector General
     (DoD IG) Independent Auditor’s Reports (IAR) included these material
     weaknesses. DoD and its Components had not considered all sources of
     information on material weaknesses in preparing their ASAs. Consequently, the
     Military Departments’ and the DoD Agency-Wide ASAs may contain inaccurate
     and incomplete information on material weaknesses.

     OMB Circular A-123 requires that an agency head’s assessment of internal
     control be performed using a variety of informational sources including DoD IG
     and GAO reports, and audits of financial statements conducted pursuant to the
     Chief Financial Officers Act, as amended. For FMFIA reporting, OMB Circular
     A-123 defines a material internal control weakness as a deficiency that the agency
     head determines to be significant enough to be reported outside the agency. DoD
     Instruction 5010.40 states that the required DoD Components may identify
     internal control weaknesses through a variety of objective sources, including but
     not limited to: audits, inspections, investigations, management assessments,
     creditable information of nongovernmental origin, staff meetings, and
     management control evaluations. Any open findings agreed to by management
     are candidates for a material weakness at the applicable level until all corrective
     actions are complete.




                                          4

           However, USD(C) personnel preparing the DoD ASA do not validate the
           completeness and accuracy of individual Components’ ASAs or verify whether
           the Components considered all sources of information in preparing these ASAs.
           This occurs because each Component is ultimately responsible and accountable
           for its assurances and its program design, direction, and implementation.

           OMB Bulletin No. 06-03 also requires that the auditor’s report on internal control
           identify material weaknesses discovered that were not reported in the reporting
           entity's ASA. Such auditor-discovered weaknesses not detected and reported by
           management on the ASA could be a reportable condition or material weakness in
           the entity’s internal control.

           Review of FY 2005 Data. As part of our review of the FY 2005 ASA for DoD
           and DoD Components, we compared the FY 2005 ASAs to the FY 2004 IARs 5
           and identified several material weaknesses 6 reported on the IARs that the Army,
           Navy, and Air Force did not include in their ASAs. The IARs for the Military
           Departments showed material weaknesses in the following areas:

               •	 Environmental Liabilities of $40.4 billion for Army General Fund,

               •	 Property, Plant, and Equipment of $156 billion for Navy General and
                  Working Capital Funds, and

               •	 Operating Materials and Supplies of $51.3 billion for the Air Force
                  General Fund.

           The Military Departments did not report these items as material internal control
           weaknesses in their respective ASAs.

           Table 1 shows the material weaknesses identified in the FY 2004 DoD IG IARs
           but not identified or reported on the Departments of the Army, Navy, and Air
           Force FY 2005 ASAs.




5
    Because the FY 2005 IARs were issued after the Military Departments submitted their FY 2005 ASAs,
    we used the FY 2004 IARs, which allowed adequate time for each Military Department to consider
    weaknesses from the FY 2004 IAR and include them in their respective ASAs. All material weaknesses
    identified in the FY 2004 IAR were also identified on the FY 2005 IAR except for these Air Force items
    pertaining to FY 2004 General Property, Plant, and Equipment; Policies and Practices; and In-Transit
    Inventory.
6
    If the Military Departments reported the IAR material weakness in its ASA as a material weakness, area
    of concern, or a reportable condition, we considered this a satisfactory indication that the Military
    Departments considered the weakness significant enough to warrant the attention of a higher-level
    management. This applied to our review of both FY 2005 and 2006 ASAs.



                                                      5
 

   Table 1. Comparison of Auditor Identified and DoD Military Departments’ Reported
                           Material Weaknesses for FY 2005
                                             Army                          Navy                        Air Force
    Material Weaknesses in                                                                      Identified   Included
                                                   Included in   Identified in   Included in
      Internal Controls            Identified in                                               in the DoD      in the
                                                    the Army     the DoD IG       the Navy
                                   the DoD IG                                                       IG       Air Force
                                                     FY 2005       FY 2004        FY 2005
                                   FY 2004 IAR                                                   FY 2004     FY 2005
                                                      ASA            IAR            ASA
                                                                                                   IAR          ASA
Financial Management Systems           YES            NO             YES            NO             YES          NO
Fund Balance with Treasury             YES            NO             YES            NO
Inventory                              YES            NO             YES            YES
Operating Materials and Supplies                                                                  YES          NO
General Property, Plant, and
                                       YES            YES            YES            YES           YES          NO
Equipment
Environmental Liabilities              YES            NO             YES            YES           YES          NO
Intragovernmental Transactions         YES            NO                                          YES          NO
Other Accounting Entries                                                                          YES          NO
Abnormal Account Balances              YES            NO
Accounts Receivable                    YES            NO             YES            NO
Accounts Payable                       YES            NO             YES            YES
Policies and Practices                                                                            YES          NO
Other Liabilities--Unsupported,
Undistributed, Problem                                               YES            NO
Disbursements
Accounting Adjustments                 YES            NO
In-Transit Inventory                                                                              YES          NO
  Total Internal Control
Weaknesses                              10             1              8              4             8               0



               Review of FY 2006 Data. Effective FY 2006, the new Appendix A requirements
               in OMB Circular-123 Revised requires an assurance statement on the internal
               control over financial reporting in the annual PAR. We did not review DoD
               compliance with OMB Circular A-123, Appendix A because this is a new
               requirement and DoD had adopted a phased implementation. However, we
               identified several material weaknesses reported on the FY 2005 IARs that were
               not included on the FY 2006 Navy and Air Force ASAs. 7 The IARs for the
               Military Departments showed material weaknesses in the following areas:

                       •	 Financial Management Systems used by the Navy have significant
                          weaknesses and do not fully comply with all requirements of the
                          Federal Financial Management Improvement Act of 1996, and

                       •	 Operating Materials and Supplies of $47.2 billion for the Air Force
                          General Fund.

    7
        Because the FY 2006 IARs were issued after the Military Departments submitted their FY 2006 ASAs,
        we used the FY 2005 IARs, which allowed adequate time for each Military Department to consider
        weaknesses from the FY 2005 IAR and include them in their respective ASA.



                                                            6

              However, the Military Departments did not report these items on their ASAs as
              material weaknesses. Table 2 shows the material weaknesses identified by the
              DoD IG FY 2005 IAR and weaknesses reported on the Departments of the Army,
              Navy, and Air Force FY 2006 ASAs.



 Table 2. Comparison of Auditor Identified and DoD Military Departments’ Reported
                         Material Weaknesses for FY 2006
                                             Army                          Navy                          Air Force
    Material Weaknesses in
                                   Identified in   Included in   Identified in                  Identified in
      Internal Controls            the DoD IG       the Army     the DoD IG
                                                                                  Included in
                                                                                                the DoD IG
                                                                                                                 Included in
                                                                                 the Navy FY                    the Air Force
                                     FY 2005         FY 2006       FY 2005                        FY 2005
                                                                                   2006 ASA                     FY 2006 ASA
                                       IAR            ASA            IAR                            IAR
Financial Management Systems          YES             YES           YES              NO            YES              NO
Fund Balance with Treasury            YES             YES           YES             YES
Inventory                             YES             YES           YES             YES
Operating Materials and Supplies                                                                   YES              NO
General Property, Plant, and
                                      YES             YES           YES             YES
Equipment
Environmental Liabilities             YES             YES           YES             YES            YES              NO
Intragovernmental Transactions        YES             YES                                          YES              NO
Other Accounting Entries                                                                           YES              NO
Abnormal Account Balances             YES             YES
Accounts Receivable                   YES             YES           YES             YES
Accounts Payable                      YES             YES           YES             YES
Problem Disbursements                                               YES              NO
Accounting Adjustments                YES             YES
 Total Internal Control
   Weaknesses                           10             10             8               6              5               0



              We fully understand that a weakness is considered material if the head of the DoD
              Component determines that the weakness is significant enough to be reported
              outside the Component and that, ultimately, the decision of whether a weakness is
              “material” is leadership’s judgment. However, in our opinion, these financial
              statement material weaknesses shown on Tables 1 and 2 are so significant that
              excluding them from the relevant Military Department’s ASA misrepresented the
              status of material weaknesses required to be reported by FMFIA.

              Identifying and Reporting Internal Control Weaknesses. The following
              paragraphs explain the Army, Navy, and Air Force processes for identifying and
              reporting internal control weaknesses.

                     Army Process. Internal control personnel explained that the initial
              determination of whether an internal control weakness is material can be made at
              any level or command. If the weakness is considered material and is reported,
              each successive level of command re-evaluates the weakness to determine if it is
              material. Army uses external sources such as DoD IG reports for its overall
              evaluation.


                                                             7
 

            Navy Process. Internal control personnel explained that Navy self-reports
    its control deficiencies. This allows commands to demonstrate their control
    environments and activities, and indicate the findings of their control assessments.
    In addition to self-reporting control deficiencies, Navy uses audit reports from the
    GAO, DoD IG, and Naval Audit Service to help identify material control
    deficiencies throughout the year. Additionally, Naval Audit Service reviews audit
    reports on a quarterly basis and uses a systematic method to determine materiality
    and potential inclusion of weaknesses in the Navy ASA.

            Air Force Process. Internal control personnel stated that the Air Force
    Auditor General provides an annual Internal Control Assessment to the Secretary
    of the Air Force that includes a synopsis of the most significant issues uncovered
    during the year, and recommends strong consideration be given to reporting those
    issues as possible material weaknesses. These issues are generally based on
    GAO, DoD IG, and Air Force Audit Agency audit reports reviewed during the
    year. These issues are sent to responsible functional offices for consideration,
    who are then required to respond whether they will report or why they should not.

    Although the Army, Navy, and Air Force internal control personnel explained
    they considered material weaknesses identified by the external sources such as
    GAO and DoD IG reports, Tables 1 and 2 show that the Air Force and Navy do
    not always include such material weaknesses in their ASAs. The Army’s
    FY 2006 ASA included all of the weaknesses identified in the IAR.


Unsupported Qualified Statement of Reasonable Assurance
    FMFIA requires the Secretary of Defense to submit an annual statement to
    Congress and the President on whether there is reasonable assurance that the
    agency’s internal controls are achieving their intended objectives. OMB
    Circular A-123, implementing FMFIA, states that this ASA represents the agency
    head’s informed judgment as to the overall adequacy and effectiveness of internal
    control within the agency. The agency must provide one of the following levels
    of assurance: unqualified statement of assurance, qualified statement of assurance,
    or a statement of no assurance. To determine the type of assurance to provide,
    OMB Circular A-123 requires that the agency head consider information from
    DoD IG and GAO reports, audits of financial statements conducted pursuant to
    the Chief Financial Officers Act of 1990, and other sources. Additionally, the
    agency head must describe the analytical basis for the type of assurance provided
    and the extent to which agency activities were assessed.

    Table 3 provides a summary of the OMB Circular A-123 guidance on the
    appropriate levels of assurance.




                                         8

                         Table 3. OMB A-123 Guidance on Level of Assurance


                          If agency has…                         agency’s level of assurance
                                                                      should be…
                      No Material Weaknesses                            Unqualified
                One or More Material Weaknesses                          Qualified
                 No Process in Place or Pervasive                      No Assurance
                      Material Weaknesses


          GAO Reports and Testimonies on DoD Weaknesses. For 16 years, GAO has
          continually reported that weaknesses in business management systems, processes,
          and internal control adversely affect 1) the reliability of reported financial data
          and 2) the management of DoD operations. According to GAO, “DoD’s financial
          management problems are pervasive, complex, long-standing, deeply rooted in
          virtually all of its business operations, and challenging to resolve.” 8 The nature
          and severity of DoD financial management, business operations, and system
          deficiencies affects financial reporting and impedes DoD managers’ ability to
          obtain all necessary information to effectively manage operations. Such
          weaknesses have negatively impacted DoD’s ability to control costs, ensure basic
          accountability, anticipate future costs and claims on the budget, measure
          performance, maintain funds control, and prevent fraud.

          GAO has reported that the “DoD financial management deficiencies, taken
          together, continue to represent the single largest obstacle to achieving an
          unqualified opinion on the U.S. Government’s consolidated financial statements.”
          According to GAO, the long-standing inability of any Military Service or major
          Defense Component to pass an independent financial audit because of pervasive
          weaknesses in financial management systems, operations, and controls provides
          additional evidence of DoD’s problems. GAO further states that “these pervasive
          financial and business management problems adversely affect the economy,
          efficiency, and effectiveness of operations, and have resulted in a lack of adequate
          accountability across all major business areas.”

          FY 2006 Requirement for a Statement of Assurance on Internal Control over
          Financial Reporting. The December 2004 revision to OMB Circular A-123
          added a new requirement for agencies to provide a separate statement of
          assurance on the effectiveness of internal control over financial reporting as a
          subset of the overall ASA. DoD has adopted an incremental approach for
          implementing this requirement by looking at specific focus areas each year—
          eight reporting areas for FY 2006, and twelve areas for FY 2007. In the FY 2006
          PAR, the Deputy Secretary of Defense provided a “qualified” statement of
          assurance over areas reviewed, and no assurance on the areas not reviewed. We
          realize that the FMFIA and OMB Circular A-123 state that the head of each
          agency has the responsibility of determining whether a weakness is material

8
    GAO Testimony before the Subcommittee on Government Management, Finance, and Accountability,
    Committee on Government Reform, House of Representatives – Reports: GAO-06-1006T (August 3,
    2006), GAO-06-406T (March 1, 2006), and GAO-05-520T (April 13, 2005).


                                                  9
 

          enough to be reported on the ASA and providing the agency’s level of assurance.
          However, we consider it our responsibility as auditors to provide feedback on the
          validity of management’s level of assurance on internal control over financial
          reporting.

          We did not perform an in-depth review of the process used by DoD management
          to assess the effectiveness of internal controls over financial reporting as required
          by OMB A-123, Appendix A. However, the DoD consolidated financial
          statements and those of the consolidating Military Departments have never passed
          an independent audit of their financial statements, and DoD financial management
          systems do not meet any of the three requirements of the Federal Financial
          Management Improvement Act. Consequently, in our opinion, the DoD
          weaknesses in financial management do not support a qualified assurance on the
          effectiveness of these controls.

          We continue to support the disciplined approach personnel from the Office of the
          USD(C) are taking to help all DoD Components comply with the requirements of
          the revised OMB Circular A-123. DoD continues to make progress in correcting
          the long-standing and pervasive weaknesses in financial management throughout
          the Department. However, we consider the qualified statement of assurance for
          the internal control over financial reporting to be misleading because a qualified
          statement of assurance does not accurately reflect the results of the assessments
          that DoD conducted in order to meet the requirement in Appendix A. A statement
          of no assurance would be more appropriate because:

                   •	 pervasive material internal weaknesses in financial reporting continue
                      to exist,

                   •	 management acknowledged that DoD’s financial statements do not
                      conform to generally accepted accounting principles, and

                   •	 DoD financial management system deficiencies continue to exist.

          A statement of no assurance on the internal controls over financial reporting
          would reflect more clearly the level of assurance that management can provide
          considering the pervasive material weaknesses that affect the reliability of the
          DoD financial statements. We included this conclusion in our FY 2006 Report on
          the DoD Agency-Wide Financial Statements, 9 but did not make any
          recommendations.

          A qualified level of assurance may be acceptable for the overall ASA for DoD
          and its Components based on a careful evaluation of all weaknesses. However, in
          our opinion, DoD does not have an adequate basis for giving a qualified opinion
          on the effectiveness of internal control over financial reporting as long as the
          current weaknesses continue to exist. Based on additional audit work to produce
          this audit report, we are recommending that DoD include a statement of no
          assurance on the internal controls over financial reporting.



9
    DoD IG Report D-2007-020, “Independent Auditor’s Report on the Fiscal Year 2006 Department of
    Defense Agency-Wide Financial Statements,” November 12, 2006.



                                                   10 

Inconsistent and Unsupported Correction Target Dates 

           DoD reported target correction dates that were not consistent with or supported by
           the DoD Component level ASAs. Specifically, the Office of the Secretary of
           Defense (Acquisition, Technology, and Logistics) reported target correction dates
           for systemic weaknesses that did not represent the Components’ target dates.

           Target correction dates represent the DoD timeline for resolution of identified
           material weaknesses. For a DoD Agency-Wide weakness, this date represents a
           roll-up of the dates on which the DoD Components who contribute to that
           weakness expect to resolve their individual portion of the weakness.
           Consequently, when all the individual Components contributing to that weakness
           each correct their portion of that weakness, the systemic weakness will be
           corrected. Therefore, the target correction date would be the date when the DoD
           Component with the latest target date was able to correct its weaknesses.

           However, the DoD FY 2006 ASA 10 reported earlier target correction dates than
           those reported by the Components. As a result, the FY 2006 DoD ASA contains
           unsupported target correction dates. Unsupported target correction dates lead to
           inaccurate conclusions on the agency’s progress correcting the material
           weaknesses and may impair management’s judgment as to the severity of the
           underlying weakness. Additionally, unsupported target correction dates provide
           unrealistic expectations for the resolution of pervasive weaknesses and potentially
           deny the agency of resources needed to correct long standing material
           weaknesses.

           Table 4 shows FY 2006 correction target dates that were not supported by the
           Component-level dates as shown in their ASAs.




10	
      FY 2005 DoD ASA target dates were also incorrect. For example, one Component listed its correction
      target date for Valuation of Inventory on Financial Reports as 4th quarter FY 2011, while the DoD
      correction target date was shown as 3rd quarter FY 2006. That same Component listed its target
      correction date for Valuation of Property, Plant, and Equipment as 1st quarter FY 2008, while DoD
      gave 4th quarter FY 2006 as the date.


                                                    11
 

                     Table 5. FY 2006 Component Correction Target Dates
                                                                                      Component
   DoD Overall             DoD Correction          Feeder Components'               Correction Target
Systemic Weakness           Target Dates         Statements of Assurance                 Dates

                                                                                        4th quarter
                                               Office of the Secretary of Defense
                                                                                         FY 2007
                              3rd quarter                                               1st quarter
    Management of                                            Navy
                               FY 2007                                                   FY 2008
Information Technology
                                                                                        4th quarter
     and Assurance                                National Defense University
                                                                                         FY 2008
                                                                                        3rd quarter
                                                           Air Force
                                                                                         FY 2008
                                                 Defense Security Cooperation           1st quarter
                                                           Agency                        FY 2008

  Personnel Security          4th quarter
                                                                                        1st quarter
Investigations Program         FY 2007                       Navy
                                                                                         FY 2008

                              4th quarter
                                                                                        4th quarter
Department of Defense          FY 2007                       Army
                                                                                         FY 2010
Contracting for Services
                                                Defense Finance and Accounting          4th quarter
                                                            Service                      FY 2008

           OMB Circular A-123 states that correcting deficiencies is an integral part of
           management accountability and must be considered a priority by the agency.
           OMB Circular A-123 also requires that the agency’s summary of the corrective
           action plans for material weaknesses to be included in the agency’s PAR and
           include a description of the material weakness, status of corrective actions, and
           timeline for resolution.

           In addition, OMB Circular A-123 requires management to maintain accurate
           records of the status of the identified material weaknesses as part of its process for
           resolution and corrective action of identified material weaknesses in internal
           control. Consistent and supportable target correction dates will assist DoD in fully
           satisfying this requirement.


           Recommendations, Management Comments, and Audit
           Response
           We recommend that the Under Secretary of Defense (Comptroller)/Chief
           Financial Officer, in coordination with the Military Departments and
           Defense agencies:

                 1. Revise the annual guidance on preparing the Annual Statement of
           Assurance to require Components to provide thorough documentation on the


                                                12
reasons for excluding the material weaknesses in financial reporting
identified by the DoD Inspector General and Government Accountability
Office reports.

Management Comments. The Acting Deputy Chief Financial Officer concurred
in principle. The FY 2006 guidance for preparing the Annual Statement of
Assurance states that DoD Components must ensure that sufficient documentation
is retained to explain significant decisions made in determining which weaknesses
to report outside the entity. Determination whether a weakness is material is a
management decision, and there is no requirement that a DoD Component has to
report a FMFIA material weakness based on a material weakness reported by
auditors.

Auditor Response. We accept management’s response. However, we are
disappointed that management comments appeared to emphasize the fact that it is
a management decision on whether to report material internal control weaknesses.
As part of its oversight role, we would hope that personnel from the Office of the
USD(C) would seriously question a DoD Component that did not report a
material weakness auditors identified when the weakness relates to a line item
that is significant to the Component. The report gave specific examples of
material internal control weaknesses, some of which related to material line items
on the annual financial statements that DoD Component management decided not
to report. We will continue to report weaknesses we consider to be material in
our annual audit Report(s) on Internal Control as part of our Independent Auditors
Report(s) on the DoD and its Components. We also will highlight such examples
when considered appropriate.

       2. Provide a statement of no assurance on internal control over
financial reporting for the DoD as long as significant and multiple pervasive
weaknesses continue to exist.

Management Comments. The Acting Deputy Chief Financial Officer concurred
in principle and stated that DoD is implementing an incremental approach in
complying with the requirements of Appendix A of OMB Circular A-123. For
FY 2006, management focused only on providing an assessment for the following
eight areas: Fund Balance with Treasury, Investments, Real Property, Military
Equipment, Federal Compensation Act Liabilities, Environmental Liabilities,
Medicare-Eligible Retiree Health Care Liabilities, and Appropriations Received.
After reviewing these areas, DoD reported material weaknesses for five of these
areas. He further stated that for the FY 2006 Statement of Assurance, the Deputy
Secretary of Defense provided a “qualified statement of reasonable assurance
over financial reporting for a limited number of focus areas, and no assurance
outside these areas.”

Auditor Response. We accept management’s response because the
determination of the level of assurance is a management decision according to the
FMFIA and OMB Circular A-123. However, providing a “qualified statement of
assurance on its internal management controls over financial reporting” is
misleading in our opinion. The FY 2006 PAR showed material weaknesses for
five of the eight financial reporting areas that DoD reviewed. In our opinion, it
would have been more appropriate to say that DoD could provide no assurance on
five of the eight areas related to financial reporting that had specific material
internal control weaknesses. Our FY 2006 Independent Auditors” Report on the


                                    13
 

DoD Agency-Wide Financial Statement stated that we considered a qualified
statement of assurance for internal controls over financial reporting to be
misleading. We will continue to provide similar conclusions when we consider
management conclusions to be misleading.

3. Revise the dates reported in the Performance and Accountability Report
as the “Correction Target Dates” to be consistent with the latest reported
target date from the Components’ Annual Statements of Assurance, or
ensure that the reason for any inconsistency can be fully justified.

Management Comments. The Acting Deputy Chief Financial Officer concurred
in principal, but suggested that we change the wording in the recommendation to
say that management should review the dates reported in the PAR and ensure any
inconsistencies can be reasonably justified. He further stated that the USD(C) has
already requested additional information from the Principal Staff Assistants
having oversight of the areas where date differences occurred. This information
will help personnel preparing the PAR gain a better understanding of why the
differences exist and be better able to address the differences in the future.

Audit Response. We consider the comments responsive to the recommendation.
We agree that inconsistencies in the Correction Target Dates could be possible
and have slightly revised the recommendation. However, justification of
inconsistencies related to the final correction date of material weaknesses of
major DoD Components is not probable. As part of our review of future PARs,
we will continue to evaluate any justification for Correction Target Dates that are
not consistent with the latest reported target date from the Components’ Annual
Statements of Assurance.

.




                                    14 

Appendix A. Scope and Methodology
    We reviewed the FY 2005 and FY 2006 ASAs for DoD and selected Components
    to determine if they complied with FMFIA, as codified in section 3512 (c) and
    (d), title 31, United States Code. The initial audit approach, which was based on
    a preliminary understanding of the DoD FMFIA reporting structure, was to
    review one Component from each stratum of the DoD organizational structure, as
    follows:

           •	 Department of Army (Military Service),

           •	 TRICARE (Office of the Secretary of Defense Field Activity),

           •	 Defense Logistics Agency (DLA) (Defense Agency)

           •	 United States Special Operations Command (SOCOM) (Unified
              Combatant Command)

    In the course of the audit, we determined that DLA, TRICARE, and SOCOM
    were not material to the DoD Agency-Wide financial statements. Because the
    audit was in support of the DoD Agency-Wide financial statement audit, we
    revised our scope to include significant consolidating Components, namely,
    Army, Navy and Air Force. These Components made up nearly 70 percent of the
    DoD combined FY 2005 assets. Though we reviewed TRICARE and SOCOM,
    but not DLA, we determined that the results of these reviews would not be
    material to DoD.

    Because our initial audit objective included an assessment of controls pertaining
    to the reporting process and a determination as to whether the ASA for DoD and
    selected Components met the FMFIA requirements, we performed limited
    top-down and bottom-up reviews of the organizations. We reviewed Federal
    laws, OMB guidance, DoD Directives and Instructions, and internal policies of
    the Army, Navy, and Air Force. We also reviewed the FYs 2004 and 2005 DoD
    PAR, the FYs 2004 and 2005 IARs, and the FYs 2005 and 2006 ASAs for the
    Army, Navy, and Air Force to identify the material weaknesses disclosed in DoD
    IG IAR and DoD Components ASA, respectively. We visited, contacted, and
    conducted interviews with officials from USD(C), Army, Navy, and Air Force to
    gain information on their process for identifying, reporting, and correcting
    material weaknesses.

    We performed this audit from January 2006 through February 2007 in accordance
    with generally accepted government auditing standards.

    Use of Computer-Processed Data. We did not rely on computer-processed data
    to perform this audit.

    GAO High-Risk Area. GAO has identified several high-risk areas in DoD. This
    report provides coverage of the Financial Management high-risk area.




                                        15
 

Prior Coverage 

      During the last 5 years, the GAO and the DoD IG have issued several
      reports/testimony related to DoD policies and procedures for the Federal
      Managers’ Financial Integrity Act of 1982. Unrestricted GAO reports can be
      accessed over the Internet at http://www.gao.gov/. Unrestricted IG DoD reports
      can be accessed at http://www.dodig.mil/audit/reports.
GAO

      GAO Testimony No. GAO-06-1006T, “Sustained Leadership Is Critical to
      Effective Financial and Business Management Transformation,” August 3, 2006

      GAO Testimony No. GAO-06-497T, “GAO’s High Risk Program,” March 15,
      2006

      GAO Testimony No. GAO-06-406T, “Fiscal Year 2005 U.S. Government
      Financial Statements Sustained Improvement in Federal Financial Management is
      Crucial to Addressing Our Nation’s Financial Condition and Long-term Fiscal
      Imbalance,” March 1, 2006

      GAO Testimony No. GAO-05-520T, “DoD’s High-Risk Areas Successful
      Business Transformation Requires Sound Strategic Planning and Sustained
      Leadership,” April 13, 2005

DoD IG

      DoD IG Report No. D-2005-025, “DoD FY 2004 Implementation of the Federal
      Information Security Management Act for Information Technology Training and
      Awareness,” December 17, 2004

      DoD IG Report No. D-2005-017, “Independent Auditor’s Report on the FY 2004
      DoD Agency-Wide Financial Statements,” November 12, 2004

      DoD IG Report No. D-2006-022, “Independent Auditor’s Report on the FY 2005
      DoD Agency-Wide Financial Statements,” November 12, 2005




                                         16 

Appendix B. 	DoD Components Providing
             Annual Statements of Assurance
The following DoD Components provided ASAs to the USD(C) to support the FY 2005
and FY 2006 DoD ASAs:

             •	 Office of the Secretary of Defense (consolidated Office of the
                Secretary of Defense Principal Staff Assistants and DoD Field
                Activities Prepared by the Director of Administration and
                Management)

             •	 Department of the Army

             •	 Department of the Navy

             •	 Department of the Air Force

             •	 Joint Staff

             •	 United States European Command

             •	 North American Aerospace Defense/United States Northern Command

             •	 United States Transportation Command

             •	 United States Pacific Command

             •	 United States Southern Command

             •	 United States Joint Forces Command

             •	 United States Central Command

             •	 United States Special Operations Command

             •	 United States Strategic Command

             •	 Inspector General Department of Defense

             •	 Defense Advanced Research Projects Agency

             •	 Defense Commissary Agency

             •	 Defense Contract Audit Agency

             •	 Defense Contract Management Agency

             •	 Defense Finance and Accounting Service

             •	 Defense Information Systems Agency



                                         17
•   Defense Intelligence Agency

•   Defense Logistics Agency

•   Defense Security Cooperation Agency

•   Defense Security Service

•   Defense Threat Reduction Agency

•   Missile Defense Agency

•   National Defense University

•   National Geospatial-Intelligence Agency

•   National Security Agency/Central Security Service

•   Pentagon Force Protection Agency

•   Uniformed Services University of the Health Sciences

•   Defense Business Transformation Agency (added for FY 2006)

•   Department of Defense Financial Reporting (added for FY 2006)




                                   18 

Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Commands
Commander, U.S. Special Operations Command

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency
Director, TRICARE

Non-Defense Federal Organization
Office of Management and Budget


Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations




                                          19
 

Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Subcommittee on Government Management, Organization and
Procurement
House Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs




                                20 

Under Secretary of Defense (Comptroller)/Chief
Financial Officer Comments


                        OFFICE OF THE UNDER SECRETARY OF DEFENSE 

                                       I 1CO DEFENSE PENTAGON 

                                      WASHINGTON, DC 20301-1 1O0 




   COMPTROLLER

                                             MAY 1     ?00?


       MEMORANDUM FOR ACTING INSPECTOR GENERAL, DEPARTMENT OF
                        DEFENSE


       SUBJECT: Draft Audit Report, DoD Compliance with the Federal Managers'* Financial
                Integrity Act of 1982 (Project No. D2OO6-D0OOFA-0106.000)

              This memorandum is in response to the subject draft report provided to this office
       for review and comment. Our response to each of the audit report recommendations is
       attached.

              We appreciate the opportunity to respond to your draft audit report and look
        forward to resolving the cited issues. My point of contact is Mr. Jerry Hinton. He can be
        reached by telephone at (703)602-0300 xl21 or email atjerry.hinton@osd.mil.




                                                 Robert P. McNamara
                                                 Acting Deputy Chief Financial Officer

        Attachment: 

        As stated 





                                                    21 

               DEPARTMENT OF DEFENSE INSPECTOR GENERAL 

                   DRAFT REPORT D2006-D000FA-0106.000 


   Agency Comments on Draft Report, "DoD Compliance with the Federal Managers' 

                    Financial Integrity Act (FMFIA) of 1982" 


      OFFICE OF THE UNDER SECRETARY OF DEFENSE (COMPTROLLER) 

                             COMMENTS 


Recommendation 1: We recommend that the UnderSecretary of Defense
(ComptrolIer)/Chief Financial Officer, in coordination with the Military Departments and
Defense agencies:

       1. Revise the annual guidance on preparing the Annual Statement of Assurance to
require Components to provide thorough documentation on the reasons for excluding the
material weaknesses in financial reporting identified by the Inspector General, DoD and
Governmental Accountability Office reports.

OUSD(C) Response: Concur in principle. Our guidance specifies requirements for
documenting the determination for reporting material weaknesses. For example, Fiscal
Year (FY) 2006 Guidance for the Preparation of the Statement of Assurance, dated Nov
8,2005, Part 2, Page 16 of 44, paragraph 2 states that DoD Components, "...must ensure
that sufficient documentation is retained to explain significant decisions made in
identifying material business process, results of the assessments, internal control test
plans, and in determining which weaknesses to report outside the entity." In light of this,
I view this recommendation as closed.

        The determination of the materiality of a weakness is a management decision.
Once the information from various sources (FMFIA reviews, audits, etc.) is reviewed,
management determines whether or not they have a material weakness. Although
management should consider material weaknesses reported by an independent auditor
when determining its own reporting under FMFIA, just as management should consider
results of other internal controls reviews performed within the Department, there is no
requirement that a DoD Component or Agency Head has to report a FMFIA material
weakness based on a material weakness reported by an independent auditor.


Recommendation 2: Provide a statement of no assurance on internal control over
financial reporting for the DoD as long as significant and multiple pervasive weaknesses
continue to exist.




                                             22 

OUSD(C) Response: Concur in principle. In FY 2006, the Department completely
revised its official policy and guidance to be in line with the Office of Management and
Budget (OMB) Circular A-123, Appendix A, The Department's policy for FY 2006 is
provided in Department of Defense Instruction 5010.40, Managers' Internal Control
Program Procedures, January 4,2005, and the annual guidance, FY 2006 Guidance for
the Preparation of the Statement of Assurance, November 8,2005. The Department's
guidelines are in line with the intent of the OMB Circular A-123, Appendix A, which
calls for managers to perform an end-to-end review of its processes, identify risks and
conduct tests of its controls, in order to identify problems and implement corrective
actions. Material weaknesses will bereportedbased on managers' assessment work.

       The Department's guidelines implement an OMB approved incremental approach
to the OMB Circular A-123, Appendix A, as discussed on page 15 of the Performance
and Accountability Report (PAR), dated November 15,2006. The focus areas for which
management conducted an Appendix A assessment using the strict application of the
annual guidance, Part II, were limited to: Fund Balance with Treasury, Investments, Real
Property, Military Equipment, Federal Employee Compensation Act Liabilities,
Environmental Liabilities, Medicare-Eligible Retiree Health Care Liabilities, and
Appropriations Received. See page 14 of the DoD Performance and Accountability
Report, dated November 15,2006. After a review of these areas, the Department
reported five material weaknesses as listed on pages 193-197 in Table VI, those
weaknesses and the representative percentage of the balance sheet are: Valuation of
Military Equipment Assets (26.7%), Valuation of Real Property Assets (7.8%), Reporting
of Environmental Liabilities (3.5%), Reporting of Defense Health Care Liabilities
(28.7%), and Fund Balance with Treasury (22.8%). The Department reported no
assurance outside these areas because no OMB Circular A-123, Appendix A management
assessment was conducted outside these areas.

        In FY 2006, the Department collected documentation to support management's
level of assurance on internal control over financial reporting. Because of the
incremental implementation approach and limited scope of the first year of
implementation, the Department determined that it would render a level of assurance for
the focus areas within the scope and no assurance for financial areas not within the scope.
Those weaknesses previously reported as financial but not within the Appendix A scope
will remain in the overall A-123 scope until such time as they are included in a
successive increment. In that way, the Department would be assured that it had the
appropriate supporting documentation required by Appendix A.

       The determination for the level of assurance is management's judgment, under the
FMFIA and the OMB Circular A-123. In our FY 2006 Statement of Assurance, signed
by the Deputy Secretary of Defense, the Department provided a qualified statement of
reasonable assurance over financial reporting for a limited number of focus areas, and
no assurance outside these areas. I consider the level of assurance that the Department




                                            23 

Final Report
Reference



               expressed in FY 2006 to be representative and in line with the incremental approach that
               the Department decided to implement under the oversight of the senior level DoD Senior
               Assessment Team. As a result, I consider this recommendation closed.


               Recommendation 3: Revise the dates reported in the PAR as the "Target Correction
Revised        Dates" to be consistent with the latest reported target date from the Components' Annual
               Statement of Assurance.
               OTJSD(C) Response: Concur in principle. I suggest the recommendation should be
               changed to, "Review the dates reported in the PAR as the 'Target Correction Dates' and
               ensure that the reason for inconsistency can be reasonably justified." In the spirit of this
               restated recommendation, the USD(C) signed memoranda to the Principal Staff
               Assistants having oversight of the areas where date differences occurred. In this
               correspondence, we requested additional information as to why there were date variances
               so that we could gain a better understanding of why the situation existed and to better
               prepare us to address this issue in the future.




                                                            24 

Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Marvin L. Peek
Charles O. Egu
Michael D. Durda
Shantiki S. Sanders
Cheri L. Reiser
Kate S. Fortkamp
Jonathan S. Park
Erin S. Hart
